audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Omaha, Nebraska Police Department
GR-50-00-009
January 14, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Omaha, Nebraska Police Department (Omaha PD).  The purpose of the grants is to enhance community policing.  The Omaha PD was awarded a total of $7,369,497 to hire 55 full-time and 16 part-time police officers and redeploy the equivalent of 116.8 existing full-time officers from administrative duties to community policing.
	
	We reviewed the Omaha PD's compliance with eight essential grant conditions.  We found the grantee's practices for budgeting, hiring, and local matching funds to be acceptable.  However, we found weaknesses in five other areas as identified below.  As a result, we question $585,589. 


The grantee's reimbursement requests contained unapproved costs for equipment, unallowable salaries for non-sworn personnel, and excess officer salaries and fringe benefits in the amount of $585,589. 1
Omaha did not have an adequate plan to retain the grant-funded positions.

	The grantee generally performed community policing as stated in the grant application but did not accurately report the implementation of its activities in the Department Annual Reports.  However, the grantee has since notified COPS of its current community policing activities.

	Officers had not been redeployed to community policing under the MORE 95 and 96 equipment grants because implementation of the grantee's Law Records Management System was not complete.  Further, the grantee did not have a plan to track the redeployment once it occurred.

	Several monitoring reports were inaccurate and untimely.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs.